HHS/OIG-Audit--"Review of the 1997 Adjusted Community Rate Proposal for a Texas Risk-Based Managed Care Organization, (A-06-98-00046)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the 1997 Adjusted Community Rate Proposal for a Texas Risk-Based
Managed Care Organization," (A-06-98-00046)
September 18, 1998
Complete
Text of Report is available in PDF format (997 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process for
determining Medicare capitation rates under risk based contracts with managed care
organizations (MCO). At a Texas MCO we identified millions in administrative costs
that may be considered inappropriate and unallowable if considered in light of
the Medicare program's general principle of paying only reasonable costs. Examples
of such costs included unreasonable management fees and reinsurance expenses from
a related organization, lobbying costs, entertainment, and charitable donations.
Additional reviews are underway and preliminary results show similar problems at
other MCOs. The results of these reviews will be shared with the Health Care Health
Financing Administration in the coming months so that appropriate legislative changes
can be considered.